   DEPARTMENT OF HEALTH & HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499



October 5, 2011

Report Number: A-03-11-00006

Mr. Bruce Hughes
President and Chief Operating Officer
Palmetto GBA, LLC
P.O. Box 100134
Columbia, SC 29202

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges by $500 to
$1,000 for Outpatient Services Processed by Palmetto GBA, LLC, in Jurisdiction 11 for the
Period January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard Siegel, Audit Manager, at (215) 861-4484 or through email
at Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-11-00006 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Bruce Hughes


cc: Neal Burkhead, Vice President, J11 AB MAC Operations
    Yvonna Ruff, Director, Part A Claims


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



REVIEW OF MEDICARE PAYMENTS
      EXCEEDING CHARGES
     BY $500 TO $1,000 FOR
     OUTPATIENT SERVICES
          PROCESSED BY
     PALMETTO GBA, LLC,
       IN JURISDICTION 11
FOR THE PERIOD JANUARY 1, 2006,
    THROUGH JUNE 30, 2009


                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-03-11-00006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

During our audit period, Palmetto GBA, LLC, (Palmetto), was the Medicare fiscal intermediary
for North Carolina and South Carolina. From January 2006 through June 2009, Palmetto
processed approximately 122 million line items, of which 1,048 line items had (1) a Medicare
line payment amount that exceeded the line billed charge amount by $500 to $1,000 and (2) 3 or
more units of service. (A single Medicare claim from a provider typically includes more than
one line item. In this audit, we did not review entire claims; rather, we reviewed specific line
items within the claims that met these two criteria. Because the terms “payments” and “charges”
are generally applied to claims, we will use “line payment amounts” and “line billed charges.”)

On May 21, 2010, CMS announced that Palmetto had been awarded the contract as the Medicare
administrative contractor for Jurisdiction 11 in four States: North Carolina, South Carolina,
Virginia, and West Virginia.

OBJECTIVE

Our objective was to determine whether Medicare payments exceeding the line billed charge
amount by $500 to $1,000, which Palmetto made to providers for outpatient services, were
correct.




                                                i
SUMMARY OF FINDINGS

Of the 1,048 selected line items for which Palmetto made Medicare payments to providers for
outpatient services during our audit period, 338 were correct. Providers refunded overpayments
on 91 line items totaling $85,256 before our fieldwork. The remaining 619 line items were
incorrect and included overpayments totaling $744,416 that the providers had not refunded by
the beginning of our audit.

Of the 619 incorrect line items:

   •    Providers reported incorrect units of service on 452 line items, resulting in overpayments
        totaling $523,809.

   •    Providers did not provide supporting documentation for 61 line items, resulting in
        overpayments totaling $69,728.

   •    One provider billed for the unlabeled use of a drug/biological on 21 line items, resulting
        in overpayments totaling $57,035.

   •    Providers billed separately for services on 39 line items for which payment was packaged
        in the payment for the primary service, resulting in overpayments totaling $44,136.

   •    Providers used incorrect HCPCS codes on 19 line items, resulting in overpayments
        totaling $20,526.

   •    Providers reported a combination of incorrect units of service and incorrect HCPCS
        codes on 20 line items, resulting in overpayments totaling $16,590.

   •    Providers billed for unallowable services or drugs on seven line items, resulting in
        overpayments totaling $12,592.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Palmetto made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Palmetto:

    •   recover the $744,416 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.



                                                  ii
PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION ...................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Medicare Contractors............................................................................ 1
              Claims for Outpatient Services ............................................................................. 1
              Palmetto GBA, LLC ............................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ................................................................................................ 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          FEDERAL REQUIREMENTS ............................................................................... 4

          OVERPAYMENTS FOR SELECTED LINE ITEMS ..................................................... 4
               Incorrect Number of Units of Service ................................................................... 4
               Unsupported Services ........................................................................................... 5
               Unlabeled Use of a Drug/Biological .....................................................................5
              Payment for Packaged Services ............................................................................ 6
              Incorrect Healthcare Common Procedure Coding System Codes ........................6
              Combination of Incorrect Number of Units of Service and
                 Incorrect Healthcare Common Coding System Codes ..................................... 6
              Services Not Allowable for Medicare Reimbursement ........................................ 7

          CAUSES OF INCORRECT MEDICARE PAYMENTS ................................................. 7

          RECOMMENDATIONS .................................................................................................. 7

          PALMETTO GBA, LLC, COMMENTS.......................................................................... 7

APPENDIX

          PALMETTO GBA, LLC, COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. Part B of the Medicare program helps cover medically necessary services such as
doctors’ services, outpatient care, home health services, and other medical services. Part B also
covers some preventive services. The Centers for Medicare & Medicaid Services (CMS)
administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare
administrative contractors (MAC) between October 2005 and October 2011. Most, but not all, of the MACs are
fully operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
MAC, whichever is applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Palmetto GBA, LLC

During our audit period, Palmetto GBA, LLC (Palmetto), was the Medicare fiscal intermediary
for North Carolina and South Carolina. From January 2006 through June 2009, Palmetto
processed approximately 122 million line items for outpatient services in North Carolina and
South Carolina. On May 21, 2010, CMS announced that Palmetto had been awarded the contract
as the Medicare administrative contractor for Jurisdiction 11 in four States: North Carolina,
South Carolina, Virginia, and West Virginia.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments exceeding the line billed charge
amount by $500 to $1,000, which Palmetto made to providers for outpatient services, were
correct.

Scope

Of the approximately 122 million line items for outpatient services that Palmetto processed
during the period January 2006 through June 2009, 1,048 line items had (1) a Medicare line
payment amount exceeding the line billed charge amount by $500 to $1,000 and (2) 3 or more
units of service. 3

We limited our review of Palmetto’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report includes all items with payments for line items that exceeded the billed charges by
$500 to $1,000. We will report the results of our review of all items with payments for line
items that exceeded billed charges by at least $1,000 separately in report number
A-03-10-00006.

Our fieldwork included contacting Palmetto in Columbia, South Carolina, and the 124 providers
in North Carolina and South Carolina that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;


3
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”


                                                         2
    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by $500 to
        $1,000 and (2) the line item had 3 or more units of service; 4

    •   identified 1,048 line items, totaling $1,540,145, that Medicare paid to 124 providers;

    •   contacted the 124 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with Palmetto; and

    •   discussed the results of our review with Palmetto on February 28, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 1,048 selected line items for which Palmetto made Medicare payments to providers for
outpatient services during our audit period, 338 were correct. Providers refunded overpayments
on 91 line items totaling $85,256 before our fieldwork. The remaining 619 line items were
incorrect and included overpayments totaling $744,416 that the providers had not refunded by
the beginning of our audit.

Of the 619 incorrect line items:

    •   Providers reported incorrect units of service on 452 line items, resulting in overpayments
        totaling $523,809.

    •   Providers did not provide supporting documentation for 61 line items, resulting in
        overpayments totaling $69,728.

    •   One provider billed for the unlabeled use of a drug/biological on 21 line items, resulting
        in overpayments totaling $57,035.

    •   Providers billed separately for services on 39 line items for which payment was packaged
        in the payment for the primary service, resulting in overpayments totaling $44,136.

4
 For this audit, we reviewed those line items that met the stated parameters. We applied those parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $500.


                                                       3
    •    Providers used incorrect HCPCS codes on 19 line items, resulting in overpayments
         totaling $20,526.

    •    Providers reported a combination of incorrect units of service and incorrect HCPCS
         codes on 20 line items, resulting in overpayments totaling $16,590.

    •    Providers billed for unallowable services or drugs on seven line items, resulting in
         overpayments totaling $12,592.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Palmetto made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.”
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 452 line items, resulting in overpayments totaling
$523,809. Primarily, these overpayments occurred for two reasons:

    •    Thirty-six providers billed Medicare for 338 line items with incorrect service units
         involving 31 different drugs, biologicals, 5 and blood products. Rather than billing
         between 1 and 350 service units, providers billed between 3 and 2,500 service units.

5
  Biologicals are substances made from a living organism or its products that are used to prevent, diagnose, treat, or
relieve symptoms of a disease.



                                                           4
           These errors occurred because of human error or because the provider’s chargemaster 6
           was incorrect. As a result of these errors, Palmetto paid the 36 providers a total of
           $445,687 when it should have paid $84,821, an overpayment of $360,866.

       •   Thirteen providers billed Medicare for 38 line items with an incorrect number of surgical
           procedures performed. Rather than billing for the number of surgical procedures
           performed, providers either billed the wrong number of procedures or billed for the units
           of time (e.g., minutes, quarter-hours, and hours) spent in the surgical suite. For each of
           the 38 cases, the provider performed between 1 and 5 surgical procedures but billed for
           between 3 and 32 services. As a result of these errors, Palmetto paid the 13 providers a
           total of $132,179 when it should have paid $46,305, an overpayment of $85,874.

Unsupported Services

Eighteen providers billed Medicare for 61 line items for which the providers could not provide
supporting documentation. The providers agreed to cancel the claims associated with these line
items or file adjusted claims and refund the combined $69,728 in overpayments that they
received.

Unlabeled Use of a Drug/Biological

One provider billed Medicare for the unlabeled use of the biological Retavase for 21 line items
for 3 or 4 units, resulting in overpayments totaling $57,035. Retavase is approved by the Food
and Drug Administration (FDA) to treat cardiac conditions using a single-use dose (18.1 mg).
However, the provider split a single labeled dose into 25 separate “mini” doses and used each
mini dose as a thrombolytic 7 agent to clean dialysis patient catheters. The provider then billed
Medicare for a full single-use dose of Retavase for each mini dose administered. According to
the Medicare Benefit Policy Manual (Pub. No. 100-02, chapter 15, section 50.4.2):

           An unlabeled use of a drug is a use that is not included as an indication on the
           drug’s label as approved by the FDA. FDA approved drugs used for indications
           other than what is indicated on the official label may be covered under Medicare
           if the carrier determines the use to be medically accepted, taking into
           consideration the major drug compendia, authoritative medical literature and/or
           accepted standards of medical practice.… These decisions are made by the
           contractor on a case-by-case basis. [Emphasis added.]

Providers must identify on their claims that the billed service was for the unlabeled use of a drug
or biological. 8 However, the provider submitted these line items as if three or four single-use
doses were administered for the labeled use. Consequently, Palmetto did not know that the 21

6
  A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers, including
a factor that converts a drug’s dosage to the number of units to bill.
7
 The Medicare Claims Processing Manual, Pub. No. 100-4, chapter 8, section 60.2.1.1, identifies “thrombolytics:
used to declot central venous catheters” as a separately billable drug used to treat a patient’s renal condition.
8
    Providers should indicate the unlabeled use of a drug or biological in the remarks section of the claim.



                                                             5
line items were for an unlabeled use that required a case-by-case payment determination and
incorrectly paid the provider $57,035.

Payment for Packaged Services

Eight providers billed Medicare on 39 line items for services that were not separately payable by
Medicare. These services were billed as separately payable drugs rather than ordinary pharmacy
drugs that are packaged in the payment for the primary procedure. These errors resulted in
overpayments totaling $44,136. For example, 2 providers billed Medicare for 26 line items for
linezolid or bortezomib. During the dates of service that the provider administered these drugs,
Medicare included payment for these drugs in the payment for the primary surgical procedure
and did not provide for separate reimbursement under the prospective payment system. As a
result of these errors, Palmetto incorrectly paid the provider $24,279.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS and other bill-processing codes 9 for 19 line items, resulting in
overpayments totaling $20,526. The following examples illustrate the use of incorrect HCPCS
codes:

     •   One provider billed Medicare for 10 line items using an incorrect condition code. The
         condition code identified the procedure as “home dialysis training” (condition code 73)
         rather than “home dialysis” (condition code 74), the service actually performed. As a
         result of these errors, Palmetto paid the provider $14,766 when it should have paid
         $5,556, an overpayment of $9,210.

     •   One provider billed Medicare for 1 line item for 600 units of service of epoetin alfa. The
         provider billed Medicare using HCPCS code J0885 that is administered to patients
         without renal disease; rather, the provider should have billed Medicare using HCPCS
         code Q4081 that is administered to patients with renal disease. 10 As a result of this error,
         Palmetto paid the provider $4,370 when it should have paid $432, an overpayment of
         $3,938.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect number of units of service and incorrect HCPCS
codes on 20 line items. These errors resulted in overpayments totaling $16,590. For example,
one provider billed Medicare for 6 units of a 0.5-mg dose of rasburicase (HCPCS code J2783);
however, the provider should have billed for 200 units of a 1-mg dose of iron sucrose (HCPCS
code J1756). Similar errors occurred on a total of 13 line items that this provider submitted. As
a result of these errors, Palmetto paid the provider $10,699 when it should have paid $812, an
overpayment of $9,887.
9
 These bill-processing codes included condition codes, which indicate that a special condition applies to the bill and
may affect processing and payment of the claim.
10
 While each unit of service for HCPCS code J0885 represents 1,000 units of epoetin alfa; each unit of service for
HCPCS code Q4081 represents only 100 units of epoetin alfa.


                                                          6
Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for seven line items for which the services provided were
not allowable for Medicare reimbursement, resulting in overpayments totaling $12,592. For
example, three providers billed Medicare for five line items for dental procedures that were not
covered outpatient services. According to the Medicare Benefit Policy Manual (Pub.
No. 100-02, chapter 15, section 150), “items and services in connection with the care, treatment,
filling, removal, or replacement of teeth or structures directly supporting the teeth are not
covered” by Medicare, unless the dental procedure is an integral part of another procedure
covered by Medicare. None of the five dental services billed was an integral part of another
covered procedure. As a result of these errors, Palmetto incorrectly paid the provider $9,812.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Palmetto made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on providers to notify the Medicare contractors of incorrect payments and on
beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 11

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS
We recommend that Palmetto:

     •    recover the $744,416 in identified overpayments,

     •    implement system edits that identify line item payments that exceed billed charges by a
          prescribed amount, and

     •    use the results of this audit in its provider education activities.

PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.
11
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         7
APPENDIX
                                                                                                   Page 1 of 3

                       APPENDIX: PALMETTO GBA, LLC, COMMENTS



                                                                                                     Bruce W. Hughes
                                                                                      President and Chief Operating Officer




August 17, 2011


Stephen Virbitsky
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Reference: Report No. A-03-11-00006

Dear Mr. Virbitsky:

This letter is in response to the recent Office of Inspector General (OIG) report entitled “Review of
Medicare Payments Exceeding Charges Between $500 and $1,000 for Outpatient Services Processed by
Palmetto GBA, LLC, in Jurisdiction 11 for the Period January 1, 2006 Through June 30, 2009”. We
appreciate the feedback your review provided and are committed to continuously improving our service
to the Medicare beneficiaries and providers we serve.

As stated in the report, Palmetto GBA, LLC (Palmetto) assumed full responsibility as the Medicare
Administrative Contractor (MAC) for Jurisdiction 11 effective May 25, 2011. During the audit period
approximately 1,048 outpatient line items were selected which had;

   (1)     a Medicare line payment amount that exceeded the line billed charge between $500 and
           $1,000
   (2)     an incorrect units of services
   (3)     a billing for unlabeled use of a drug/biological
   (4)     a billing separately for packaged services
   (5)     a use of incorrect HCPC codes
   (6)     a billing for unallowable services

Of the 1,048 selected line items for which Medicare payments to providers for outpatient services during
the audit period, 338 were correct. Providers refunded overpayments on 91 line items totaling $85,256
before fieldwork. The remaining 619 line items were incorrect. Thus the following recommendations:

   •     Recover the $744,416 identified overpayments.

         Palmetto GBA Response:
         All claims identified in the audit are adjusted and completed as of May 26, 2011.



                                 www.palmettogba.com Post Office Box 100134
                                       ISO 9001:2000 Columbia, South Carolina 29202-3134
                                                                                         Page 2 of 3
Stephen Virbitsky
August 17, 2011
Page 2


   •     Implement system edits that review line item payments that exceed billed charges by
         a prescribed amount.

         Palmetto GBA Response:

         Palmetto GBA has implemented Medically Unlikely Edits (MUEs), Maximum Allowed
         Units (MAUs), and exclusion edits (e.g. dental, cosmetic).

   •     Use the results of this audit in its provider education activities.

   Palmetto GBA Response:

         •   Correct coding has been and continues to be discussed in each educational session.

         •   In the Drugs and Biologicals Webinar providers are instructed to identify drugs and
             biologicals with appropriate HCPCS codes and the appropriate units.

         •   The billing for unallowable services is and will continue to be discussed in CERT
             education and Top 10 Claim Submission Errors educational presentations.

         •   Our recent CERT/Claim Submission Errors One-on-One sessions focused on
             documentation and improper payments.

         •   Our Provider Outreach and Education (POE) Tour for 2011 continues to focus on our
             largest specialties (Inpatient Hospitals and Skilled Nursing Facilities) which
             historically contribute to the top errors.

         •   Additional 2011 and 2012 provider outreach and education events include seminars
             and workshops on:

                o   Claims Submission Errors
                o   Billing and Coding
                o   Part B Small and New Provider Billing Training
                o   CERT
                o   Top Denials and Inquiries




                               www.palmettogba.com Post Office Box 100134
                                     ISO 9001:2000 Columbia, South Carolina 29202-3134
                                                                                       Page 3 of 3
Stephen Virbitsky
August 17, 2011
Page 3

In addition, Palmetto GBA will address claims submission errors on a quarterly basis in our
ACTs and monthly meetings with hospital Compliance Officers to increase awareness.

Thank you for providing Palmetto GBA with the opportunity to submit feedback regarding your
review. If you have any questions, please do not hesitate to contact me.


                                                        Sincerely

                                                        /Bruce W. Hughes/




cc:      Steven Smetak, COTR, CMS
         Daniel Dion, CMS
         Ann Archibald, Palmetto GBA
         Neal Burkhead, Palmetto GBA
         Robin Spires, Palmetto GBA
         Sheri Thompson, Palmetto GBA




                             www.palmettogba.com Post Office Box 100134
                                   ISO 9001:2000 Columbia, South Carolina 29202-3134
